ES, IG-00-002, Raytheon Subcontract Management
RAYTHEON SUBCONTRACT MANAGEMENT
IG-00-002
Executive Summary
Background
Under NASA contract NAS9-18181, Raytheon Technical Services Company provides
development, maintenance, operations, and sustaining engineering for the
Space Station Training Facilities and the Part Task Trainer.(1)  The
cost-plus-award-fee contract began on October 23, 1989, and runs through
April 30, 2003.  Negotiated contract costs total about
$595.1 million.(2)
Raytheon has an approved purchasing system and authority to
award subcontracts through January 24, 2000.  The contract requires Raytheon
to subcontract on a competitive basis to the maximum practical extent.  The
subcontracts awarded since contract award through August 20, 1999, total
about $134.7 million, or about 23 percent of total negotiated costs.  To
issue subcontracts valued at more than $500,000, Raytheon must first obtain
written consent from the NASA contracting officer.
Objectives
The overall audit objective was to determine whether Raytheon appropriately
awarded and effectively managed subcontracting activities on NASA's contract
with Raytheon.  Additional details on the objectives, scope, and methodology
are in Appendix A.
Results of Audit
Raytheon officials appropriately awarded and effectively managed
subcontracting activities on contract NAS9-18181, except for maintaining
supporting justifications of noncompetitive procurements.  NASA officials
incorporated the required contract clauses into the prime contract, and
Raytheon officials incorporated the clauses into subcontracts.  Also,
Raytheon officials appropriately obtained consents-to-subcontract for
subcontracts valued at more than $500,000 as required by the contract.
However, our review of four noncompetitive procurements with a total value
of $399,300 showed that Raytheon officials did not maintain supporting
documentation for the justifications for the noncompetitive procurements.
As a result, NASA has reduced assurance that the contractor maximized the
competition of its subcontracts.
Recommendations
Management should direct Raytheon to maintain adequate documentation to
support justifications for noncompetitive procurements.  Additionally,
management should ask the NASA contracting officer and the Defense Contract
Management Command (DCMC) to include reviews for supporting documentation in
their respective purchasing system reviews.  We believe that these actions
will provide additional assurances that Raytheon officials select
subcontractors on a competitive basis to the maximum practical extent as
required by the Federal Acquisition Regulation.
Management's Response
Management concurred with each recommendation.  The complete text of the
response is in Appendix B.  We consider management's comments responsive.
FOOTNOTES
1. The Part Task Trainer is a single system, stand-alone training device designed to provide subsystem training for the Space Station Distributed Systems.
2. The amount consists of $562.5 million in estimated costs and $32.6 million in contractor fees.
View Complete Report.